Report No. D-2011-075           June 17, 2011




        DoD Officials Need to Improve
   Reporting of Obligations and Expenditures
           for the Guam Realignment
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
ASN(FM&C)                     Assistant Secretary of the Navy (Financial Management
                                 and Comptroller)
DFAS                          Defense Finance and Accounting Service
DON                           Department of the Navy
FIS                           Facilities Information System
ICG                           Interagency Coordination Group
JGPO                          Joint Guam Program Office
MILCON                        Military Construction
MIPR                          Military Interdepartmental Purchase Request
NAVFAC                        Naval Facilities and Engineering Command
NAVFACPAC                     Naval Facilities and Engineering Command Pacific
O&M                           Operation and Maintenance
SABRS                         Standard Accounting, Budgeting, and Reporting System
STARS                         Standard Accounting and Reporting System
USMC                          U.S. Marine Corps
WAWF                          Wide Area Work Flow
                                     IN SPECTOR GENERAL 

                                   DEPARTMENT OF DEFENSE 

                                      400 ARMY NAVY DR IVE 

                                 ARLINGTON, VIRG INIA 22202-4704 



                                                                                          June 17,2011

MEMORANDUM FOR NAVAL fN SPECTOR GENERAL

SUBJ ECT : 	 0 00 Official s Need to Improve Reporting of Obli gations and Expenditures for the
             Guam Realignment (Report No . 0 -2 011 -075 )

We are prov iding this report for rev iew and comm ent. Public Law 111 -84, "National Defense
Authorization Act for Fiscal Year 20 I0," October 28, 2009, Section 2835, " Interagency
Coordination Group of Inspectors General for Guam Reali gnment," requires the Interagency
Coord ination Group to conduct audits of obligati ons and expenditures for the Guam rea lignment.
As re pOIted in the 2009 " Interagency Coordination Group of Inspectors General for Guam
Rea lignment Annual Report," February I, 20 I 0, the Department of the Navy obli gated
approx imately $60. 3 million and expended approx im ately $35.6 million. However, 0 00 did not
accurately identify and report these obli gati ons and expenditures. Guam reali gnment costs are
expected to grow to at least $4.2 billion in future fi sca l years.

We considered the Department of the Navy comments when preparing the final report. Do D
Directive 7650.3 requires that all recommendations be resolved promptly. The Actin g Ass istant
Secretary of the Nav y (Financial Management and Comptroller) agreed with the
recommendation s but did not provide a compl eti on date for the planned actions. Therefore, we
request comments on Recommendations 1,2,3, 4, and 5 by Jul y 17, 2011 , that include a
completion date.

Please prov ide comments that conform to the requirements of 000 Directive 765 0.3 . If
possible, send management comments in electronic format (Adobe Acrobat File onl y) to
audc lev({il,dodi g. mi l. Copies of management comments must have the actual signature of the
authori zing offi cial for your organi zation. We cannot accept the /Signed/ symbo l in place of the
actual signature. If you arrange to send classified comments electronically you must send them
over the SECRET Internet Protoco l Router Network (SIPRN ET).

We appreciate the cOlll'tes ies extended to the staff. Please direct questions to me at
(703) 601 -5 868 (DSN 329-5 868).




                                               Patri cia A. Marsh, CPA
                                               Assistant Inspector General
                                               Financial Management and Reporting
Report No. D-2011-075 (Project No. D2010-D000FC-0200.000)	                    June 17, 2011


              Results in Brief: DoD Officials Need to
              Improve Reporting of Obligations and
              Expenditures for the Guam Realignment
                                                   •	 establish a code for the Guam realignment in
What We Did                                           the official accounting systems,
Our objective was to determine whether DoD         •	 establish adequate financial policies and
could accurately identify and report obligations      procedures, and
and expenditures for the Guam realignment.         •	 adequately monitor the coordination of the
We also determined whether DoD properly               identification and reporting of obligations
maintained supporting documentation. We               and expenditures.
reviewed the Department of the Navy (DON)
2009 obligations of approximately $60.3 million    As a result, DoD did not provide reliable Guam
and expenditures of approximately                  realignment costs for Congress. Therefore,
$35.6 million reported in the “Interagency         Congress cannot ensure that Guam realignment
Coordination Group of Inspectors General for       costs are properly allocated, and it will not have
Guam Realignment Annual Report,”                   reliable historical cost data for planning future
February 1, 2010 (Annual Report).                  military realignments.

What We Found                                      What We Recommend
DoD officials did not accurately identify and      We recommend that ASN(FM&C) coordinate
report 2009 obligations and expenditures for the   with DON activities and DFAS to:
Guam realignment in the Annual Report.
                                                   •	 review obligations and expenditures for the
Specifically, DON personnel did not accurately
                                                      Guam realignment and provide corrected
identify 36 obligations, resulting in an
                                                      obligations and expenditures;
understatement of obligations of approximately
                                                   •	 establish a contingency code for the Guam
$7.3 million, and did not adequately support
                                                      realignment;
9 obligations, resulting in an overstatement of
obligations of approximately $1.9 million.         •	 establish adequate financial policies and
Additionally, DON and Defense Finance and             procedures;
Accounting Service (DFAS) personnel did not        •	 establish procedures to retain all supporting
accurately identify 2 expenditures, resulting in      documentation; and
an understatement of expenditures of $228,043,     •	 conduct periodic quality assurance reviews.
and did not adequately support 28 expenditures,
resulting in an overstatement of expenditures of   Management Comments and
approximately $13.3 million.                       Our Response
                                                   The Acting ASN(FM&C) agreed with the
This occurred because the Assistant Secretary of
                                                   recommendations but did not provide a
the Navy (Financial Management and
                                                   completion date for the planned actions. We
Comptroller) (ASN[FM&C]) personnel did not
                                                   request that ASN(FM&C) provide a completion
adequately coordinate the identification and
                                                   date for the planned actions by July 17, 2011.
reporting of 2009 obligations and expenditures.
                                                   Please see the recommendations table on the
Specifically, ASN(FM&C) did not
                                                   back of this page.




                                                   i
Report No. D-2011-075 (Project No. D2010-D000FC-0200.000)             June 17, 2011

Recommendations Table

         Management                    Recommendations      No Additional Comments
                                      Requiring Comment           Required
Assistant Secretary of the Navy   1, 2, 3, 4, and 5
(Financial Management and
Comptroller)

Please provide comments by July 17, 2011.




                                            ii
Table of Contents

Introduction                                                                     1


      Audit Objectives                                                           1

      Background on the Guam Realignment                                         1

      Internal Controls Over Identifying and Reporting 2009 Obligations and

         Expenditures for the Guam Realignment                                   3


Finding. DoD Needs to Accurately Identify and Report 2009 Obligations and

Expenditures for the Guam Realignment                                            4


      Obligations and Expenditures Were Not Accurately Identified and Reported   4

      Improving Coordination for Reporting Obligations and Expenditures          5

      Increasing the Reliability of Guam Realignment Costs                       7

      Recommendations, Management Comments, and Our Response                     7


Appendices

      A. Scope and Methodology                                                   10 

      B. Inaccurately Identified and Reported Obligations                        12 

      C. Inaccurately Identified and Reported Expenditures                       13 


Management Comments

      Department of the Navy                                                     15 

Introduction
Audit Objectives
Our audit objective was to determine whether DoD properly obligated and expended Guam
realignment funds. Specifically, we determined whether DoD could accurately identify and
report obligations and expenditures for the Guam realignment. We also determined whether
DoD properly maintained supporting documentation. For this project, we did not review the
validity of the requirements identified by DoD.

We conducted this audit in accordance with the requirements of Public Law 111-84, “National
Defense Authorization Act for Fiscal Year 2010,” October 28, 2009, Section 2835, “Interagency
Coordination Group [ICG] of Inspectors General for Guam Realignment.” Section 2835
designates the DoD Inspector General as the chairman of the ICG. The chairman is required to
provide an Annual Report to the congressional defense committees, Secretary of Defense, and
Secretary of the Interior. The report contains data collected from multiple organizations.

Section 2835 also requires the ICG to conduct audits of obligations and expenditures for the
Guam realignment. 1 We reviewed the Department of the Navy (DON) 2009 obligations of
approximately $60.3 million and expenditures of approximately $35.6 million reported in the
“Interagency Coordination Group of Inspectors General for Guam Realignment Annual Report”
(Annual Report), February 1, 2010. See Appendix A for a discussion of the scope and
methodology.

Background on the Guam Realignment
On May 1, 2006, members of the U.S.-Japan Security Consultative Committee finalized the
plans to relocate approximately 8,000 III Marine Expeditionary Force personnel and their 9,000
dependents from Okinawa to Guam. On August 25, 2006, the Deputy Secretary of Defense
established the Joint Guam Program Office (JGPO), reporting to the Assistant Secretary of the
Navy (Energy, Installations, and Environment), to facilitate, manage, and execute requirements
associated with the Guam relocation. JGPO receives planning assistance from the Naval
Facilities and Engineering Command (NAVFAC) in conducting analyses and developing an
acquisition strategy for the infrastructure needed to support DoD’s operational requirements.

NAVFAC is a global engineering and acquisition command that supports DON, the U.S. Marine
Corps (USMC), and other Federal agencies with planning, designing, constructing, and
sustaining facilities for commanders, the warfighter, and their families. NAVFAC has two
primary commands: NAVFAC Atlantic in Norfolk, Virginia, and NAVFAC Pacific
(NAVFACPAC) in Pearl Harbor, Hawaii. NAVFACPAC has DON contracting authority and
specialized expertise in design and construction acquisition, facilities support contracts, and
environmental restoration and planning for the Guam realignment. Three commands fall under


1
 An obligation is a firm, legally binding agreement between parties for the acquisition of goods or services. For
purposes of this report, an expenditure is the payment for goods and services that were ordered and received.


                                                         1

NAVFACPAC: NAVFAC Hawaii, NAVFAC Marianas in Guam, and NAVFAC Far East
in Japan.

The U.S. Government and the government of Japan estimated costs for facility and infrastructure
development requirements relating to the Guam realignment to be approximately $10.3 billion.
The government of Japan agreed to provide up to $6.1 billion. The U.S. Government was to
fund approximately $4.2 billion. DoD planned to fund the majority of its costs for the Guam
realignment with Operation and Maintenance (O&M) and Military Construction (MILCON)
appropriations. O&M appropriations fund DoD civilian salaries, supplies and materials,
furniture, equipment maintenance, real property maintenance, equipment and facility leases,
food, clothing, and fuel. MILCON appropriations fund planning and design; new facility
installation or assembly; the addition, expansion, alteration, or replacement of existing facilities;
acquisition of an existing facility; and facility relocation. MILCON appropriations also fund
equipment installed as part of a facility and related site preparation, demolition, excavation,
landscaping, or other land improvements. The majority of O&M and MILCON appropriated
funds are planned for obligation and expenditure in future fiscal years.

DON Obligation and Expenditure of Reimbursable O&M Funds
The Assistant Secretary of the Navy (Financial Management and Comptroller) (ASN[FM&C])
apportions O&M funds to DON activities 2 for their identified needs. DON activities prepare a
Comptroller of the Navy Form 2275, “Order for Work and Services” (Form 2275), to request
reimbursable work. DoD Components outside DON prepare a DD 448, “Military
Interdepartmental Purchase Request” (MIPR), to perform reimbursable work or services. For the
Guam realignment, both funding documents are submitted to a DON executing activity, which
signs an acceptance copy of the funding documents and provides it to the requester.

The DON executing activity then records the funding document in the Facilities Information
System (FIS). FIS is a management information system that integrates contract, design,
financial, and project management information. Additionally, the DON activity obligates the
funds in its official accounting systems: the Standard Accounting and Reporting System
(STARS) for the Navy and the Standard Accounting, Budgeting, and Reporting System
(SABRS) for USMC. As work is performed, the DON activity personnel enter their time into the
Standard Labor Data Collection and Distribution Application and their travel requirements and
expenses into the Defense Travel System. These systems electronically transfer expenditures
back to FIS, STARS, and SABRS.

DON Obligation and Expenditure of Contract O&M Funds
DON activities prepare a Comptroller of the Navy Form 2276, “Request for Contractual
Procurement” (Form 2276), to request contract work. DoD Components outside DON prepare a
MIPR to request contract work and services. For the Guam realignment, both funding
documents are submitted to a DON executing activity. The DON executing activity signs the
funding documents, awards the contracts, and provides them back to the requester. DON


2
 DON activities specific to the Guam realignment include: ASN(FM&C); JGPO; NAVFAC; NAVFACPAC;
Commander, Navy Installations Command; USMC; USMC Program and Resources; and USMC Forces, Pacific.


                                                  2

activities obligate the funds in the official accounting systems. Concurrently, the DON
executing activity records the obligation in FIS. Contractors submit invoices in Wide Area Work
Flow (WAWF), a system that allows contractors to electronically submit invoices and receiving
reports, which DON activities certify. Once certified, the invoices flow into STARS One-Pay,
an online bill paying system, and FIS. STARS One-Pay matches the certified invoices with
obligations in the official accounting systems. Once matched, the invoices flow into the
Automated Disbursing System for disbursement by the Defense Finance and Accounting
Service (DFAS).

DON Obligation and Expenditure of MILCON Funds
DON activities generate the requirements for MILCON projects. ASN(FM&C) apportions
MILCON funds to NAVFAC for generated requirements. NAVFAC authorizes NAVFACPAC
to execute the MILCON funds. NAVFACPAC awards contracts and obligates the funding in
FIS. FIS electronically transfers obligations to STARS. MILCON funds are expended through
WAWF invoicing. Contractors submit invoices in WAWF, and DON activities certify the
invoices. Once certified, the invoices flow into STARS One-Pay and FIS. STARS One-Pay
matches certified invoices with obligations in the official accounting systems. Once matched,
the invoices flow into the Automated Disbursing System for disbursement by DFAS.

Internal Controls Over Identifying and Reporting 2009
Obligations and Expenditures for the Guam Realignment
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of internal
controls that provides reasonable assurance that programs are operating as intended and to
evaluate the effectiveness of the controls. We identified internal control weaknesses as they
relate to the audit objective. ASN(FM&C) did not adequately coordinate the identification and
reporting of 2009 obligations and expenditures. Specifically, ASN(FM&C) did not establish a
code for Guam realignment in the official accounting systems, did not establish adequate
financial policies and procedures, and did not adequately monitor the coordination of the
identification and reporting of obligations and expenditures. We will provide a copy of the
report to the senior official responsible for internal controls in DON.




                                               3

Finding. DoD Needs to Accurately Identify and
Report 2009 Obligations and Expenditures for
the Guam Realignment
DoD officials did not accurately identify and report 2009 obligations and expenditures for the
Guam realignment in the Annual Report. Specifically, DON personnel did not:

   •	 accurately identify 36 obligations, resulting in an understatement of obligations of 

      approximately $7.3 million, and 

   •	 adequately support 9 obligations, resulting in an overstatement of obligations of 

      approximately $1.9 million.

Additionally, DON and DFAS personnel did not:
   •	 accurately identify 2 expenditures, resulting in an understatement of expenditures of
      $228,043, and
   •	 adequately support 28 expenditures, resulting in an overstatement of expenditures of
      approximately $13.3 million.
This occurred because ASN(FM&C) personnel did not adequately coordinate the identification
and reporting of 2009 obligations and expenditures. Specifically, ASN(FM&C) personnel did
not:

   •	 establish a contingency code for Guam realignment in the official accounting systems;
   •	 establish adequate financial policies and procedures, including the retention of supporting
      documentation; and
   •	 adequately monitor the coordination of the identification and reporting of obligations and
      expenditures.
As a result, DoD did not provide reliable Guam realignment costs for Congress. Of the total
amounts we reviewed, DON personnel understated obligations and expenditures by $7.5 million
and overstated them by $15.2 million, resulting in a total error value of $22.7 million. Therefore,
Congress cannot ensure that Guam realignment costs are properly allocated for future years, and
it will not have reliable historical cost data for planning future military realignments.

Obligations and Expenditures Were Not Accurately Identified
and Reported
DoD officials did not accurately identify and report 2009 obligations and expenditures for the
   DON personnel did not accurately identify 36 obligations,       Guam Realignment in the
        resulting in an understatement of obligations of           Annual Report. Specifically,
  approximately $7.3 million, and did not adequately support       DON personnel did not
   9 obligations, resulting in an overstatement of obligations     accurately identify
                                                                   36 obligations, resulting in an
                 of approximately $1.9 million.
                                                                   understatement of obligations
of approximately $7.3 million, and did not adequately support 9 obligations, resulting in an


                                                 4

overstatement of obligations of approximately $1.9 million. We reviewed 51 line items
containing 74 obligations valued at $46.9 million. (See Appendix A for the methodology used to
select the line items reviewed.) For one line item, DON personnel did not identify any
obligations in the ICG Annual Report; however, it later confirmed that this line item should have
included 32 obligations totaling almost $5.6 million. For an additional four obligations, DON
personnel reported a lower amount than was actually obligated. For example, DON personnel
reported an obligation of $1.3 million for program support costs; however, the delivery order
identified an obligation of $1.6 million. A NAVFACPAC official confirmed that the delivery
order was accurate and the obligation should have been identified at $1.6 million.

DON personnel also did not provide adequate obligation documentation to support the total
value for eight obligations. For example, DON personnel originally reported approximately
$1.9 million in obligations to analyze costs and rates for various special purpose entity utility
options. However, the delivery order for the contract identified 2009 obligations of almost
$700,000. Therefore, DON personnel overstated obligations by $1.2 million. Additionally, two
DON activities erroneously reported the same obligation, resulting in an overstatement of more
than $350,000 for one line item. (See Appendix B for details on the inaccurately identified and
reported obligations.)

DON and DFAS personnel did not accurately identify 2 expenditures, resulting in an
understatement of $228,043, and did not adequately support 28 expenditures, resulting in an
overstatement of approximately $13.3 million. We reviewed 51 line items containing 53
expenditures valued at $31.4 million. (See Appendix A for the methodology used to select the
   DON and DFAS personnel did not accurately identify       line items reviewed.) For two
     two expenditures, resulting in an understatement of    expenditures, DON reported a
      expenditures of $228,043, and did not adequately      lower amount than was actually
   support 28 expenditures, resulting in an overstatement   expended. For example, DON
       of expenditures of approximately $13.3 million.      personnel reported an expenditure
                                                            of approximately $13,000 for
airspace studies. However, DFAS personnel provided vouchers that identified expenditures of
approximately $51,000, resulting in an understatement of approximately $38,000.

Further, DFAS personnel were not able to provide adequate expenditure documentation to
support the total value for 28 expenditures. For example, DON personnel originally reported
approximately $361,000 in expenditures for USMC contractor support costs. However, DFAS
personnel could only provide documentation to support approximately $61,000 in expenditures,
resulting in a potential improper payment of almost $300,000. In another instance, DFAS
personnel did not provide any expenditure documentation to support approximately $867,000 in
expenditures. (See Appendix C for details on the inaccurately identified and reported
expenditures.)

Improving Coordination for Reporting Obligations
and Expenditures
ASN(FM&C) personnel did not adequately coordinate the identification and reporting of
2009 obligations and expenditures. Specifically, ASN(FM&C) personnel did not establish a
contingency code for the Guam realignment in the official accounting systems and did not


                                                5

establish adequate financial policies and procedures for identifying and reporting obligations and
expenditures, including the retention of supporting documentation. Further, ASN(FM&C)
personnel did not adequately monitor the coordination of the identification and reporting of
obligations and expenditures.

Secretary of the Navy Instruction 5430.7Q, “Assignment of Responsibilities and Authorities in
the Office of the Secretary of the Navy,” August 17, 2009, states that ASN(FM&C) is
responsible for all financial management and comptrollership within DON. However,
ASN(FM&C) did not establish a contingency code in the DON official accounting systems to
assist with identifying 2009 obligations and expenditures for the Guam realignment. In the past,
ASN(FM&C) established and implemented contingency codes in DON’s official accounting
systems for all costs for overseas contingency operations and Hurricane Katrina relief. Having
these codes helped ASN(FM&C) more accurately identify costs specific to those operations.
ASN(FM&C) should coordinate with the DON activities and DFAS to establish a contingency
code in the official accounting systems to assist with identifying obligations and expenditures for
the Guam realignment.

ASN(FM&C) personnel also did not establish adequate financial policies and procedures for
consolidating and reporting 2009 obligations and expenditures for the ICG Annual Report. The
Assistant Secretary of the Navy for Installations and Environment Memorandum, “Roles and
Responsibilities for the Strategic Realignment of Forces and Capabilities to Guam,”
                                         August 11, 2010, states that ASN(FM&C) should
   ASN(FM&C) personnel also did
                                         establish financial policies and oversee financial
   not establish adequate financial
                                         procedures and operations in support of the Guam
     policies and procedures for
                                         realignment. NAVFACPAC consolidated and reported
  consolidating and reporting 2009
                                         the majority of DON 2009 obligations and expenditures
    obligations and expenditures.
                                         for the Annual Report. Specifically, NAVFACPAC
consolidated NAVFAC; NAVFACPAC; Commander, Navy Installations Command; and USMC
2009 obligations and expenditures and provided the information to NAVFAC. NAVFAC
provided the information to the DoD Office of Inspector General for the Annual Report. JGPO
also provided 2009 obligations and expenditures to the DoD Office of Inspector General. DFAS
was not involved in the identification or reporting of 2009 obligations and expenditures for the
Guam realignment.

According to NAVFACPAC officials, ASN(FM&C) personnel did not provide them with any
financial policies and procedures on how to compile and report the 2009 obligations and
expenditures for the Guam realignment, nor did it adequately monitor the coordination of the
identification and reporting. Additionally, ASN(FM&C) did not ensure the retention of adequate
support for all obligations and expenditures. Finally, ASN(FM&C) did not conduct a quality
assurance review, but only performed a high-level, cursory review. Therefore, ASN(FM&C)
should coordinate with the DON activities and DFAS to review all 2009 obligations and
expenditures for the Guam realignment and provide corrected obligations and expenditures to
the ICG.

ASN(FM&C) should coordinate with the DON activities and DFAS to establish adequate
financial policies and procedures to ensure that future obligations and expenditures for the Guam



                                                 6

realignment are accurately identified and reported for Congress. ASN(FM&C) should also
coordinate with the DON activities and DFAS to establish procedures to retain all obligation and
expenditure documentation for the Guam realignment to ensure adequate support exists for
accurate reporting. Retention of obligation and expenditure documentation will assist the ICG in
conducting a final audit on Guam realignment programs and operations, as required by Section
2835 of Public Law 111-84. Finally, ASN(FM&C) should conduct periodic quality assurance
reviews to ensure accurate identification and reporting of Guam realignment obligations and
expenditures.

Increasing the Reliability of Guam Realignment Costs
DoD did not provide reliable Guam realignment costs for Congress. Of the total amounts we
reviewed, DON personnel understated obligations and expenditures by $7.5 million and
overstated them by $15.2 million, resulting in a total error value of $22.7 million. If the
obligations and expenditures are inaccurately reported, Congress cannot ensure that Guam
                                                          realignment costs, which are expected to
     DON personnel understated obligations and
                                                          grow to at least $4.2 billion, are properly
  expenditures by $7.5 million and overstated them
                                                          allocated to DoD in future fiscal years.
   by $15.2 million, resulting in a total error value
                                                          Congress also will not have reliable
                   of $22.7 million.
                                                          historical cost data for planning future
military realignments. Congress could use reliable historical costs from the Guam realignment,
one of the largest movements of military assets in decades, as a benchmark for planning future
military realignments.

Recommendations, Management Comments, and Our
Response
We recommend that the Assistant Secretary of the Navy (Financial Management and
Comptroller) coordinate with the Department of the Navy activities and the Defense
Finance and Accounting Service to:

1. Review all 2009 obligations and expenditures for the Guam realignment and provide
corrected obligations and expenditures to the Interagency Coordination Group of
Inspectors General for Guam Realignment.

Department of the Navy Comments
The Acting ASN(FM&C) agreed and stated that the Office of Financial Operations would be
issuing guidance directing activities to resubmit the 2009 Guam relocation obligations and
expenditures to the ICG.

Our Response
The Acting ASN(FM&C) actions meet the intent of the recommendation. However, he did not
provide a completion date for issuing the guidance. Therefore, we request that he provide
comments on the final report that include a completion date for the planned actions.




                                                  7

2. Establish a contingency code in the official accounting systems specifically to identify
obligations and expenditures for the Guam realignment.

Department of the Navy Comments
The Acting ASN(FM&C) agreed and stated that prescribed accounting codes would be addressed
in the guidance; however, a contingency code is not the appropriate mechanism for capturing
costs.

Our Response
The establishment of a contingency code in the official accounting systems will identify
obligations and expenditures for the Guam realignment. The Acting ASN(FM&C) will meet the
intent of the recommendation by addressing in the guidance that DoN activities use prescribed
accounting codes for capturing Guam realignment costs in the official accounting systems.
However, he did not provide a completion date for issuing the guidance. Therefore, we request
that he provide comments on the final report that include a completion date for the planned
actions.

3. Establish adequate financial policies and procedures to ensure that future obligations
and expenditures for the Guam realignment are accurately identified and reported for
Congress.

Department of the Navy Comments
The Acting ASN(FM&C) agreed and stated that the guidance will provide additional direction to
ensure proper future reporting of obligations and expenditures for the Guam realignment.

Our Response
The Acting ASN(FM&C) actions meet the intent of the recommendation. However, he did not
provide a completion date for issuing the guidance. Therefore, we request that he provide
comments on the final report that include a completion date for the planned actions.

4. Establish procedures to retain all obligations and expenditure documentation for the
Guam realignment to ensure adequate support exists for accurate reporting.

Department of the Navy Comments
The Acting ASN(FM&C) agreed and stated that the guidance will include direction on retaining
documentation supporting obligations and expenditures for the Guam realignment and making
them readily available for audit.

Our Response
The Acting ASN(FM&C) actions meet the intent of the recommendation. However, he did not
provide a completion date for issuing the guidance. Therefore, we request that he provide
comments on the final report that include a completion date for the planned actions.




                                              8

5. Conduct periodic quality assurance reviews to ensure accurate identification and
reporting of Guam realignment obligations and expenditures.

Department of the Navy Comments
The Acting ASN(FM&C) agreed and stated that the guidance will task the appropriate
organizations to perform reviews.

Our Response
The Acting ASN(FM&C) actions meet the intent of the recommendation. However, he did not
provide a completion date for issuing the guidance. Therefore, we request that he provide
comments on the final report that include a completion date for the planned actions.




                                             9

Appendix A. Scope and Methodology
We conducted this performance audit from April 2010 through April 2011 in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objectives.

To determine whether DoD could accurately identify and report obligations and expenditures for
the Guam realignment, we evaluated the process for reporting 2009 obligations and expenditures.
During 2009, DoD reported obligations of approximately $60.3 million and expenditures of
approximately $35.7 million in the “Interagency Coordination Group of Inspectors General for
Guam Realignment Annual Report,” February 1, 2010. Only the Department of the Army and
DON obligated and expended funds for this purpose in 2009. We did not review the Department
of the Army obligations and expenditures of $59,516 because it was immaterial to the overall
2009 obligations and expenditures. For this project, we did not review the validity of the
requirement identified by DoD.

DON 2009 obligations of $60.3 million and expenditures of $35.6 million were comprised of
194 line items. Each line item contained an obligation, expenditure, or both. We stratified the
194 line item population into four strata based on the sum of obligations and expenditures
originally reported. We nonstatistically selected a sample of 51 line items for review. Of the
51 sample line items, 1 consolidated an additional 23 line items that were not included in the
original 194. The sample reviewed included $46.9 million of obligations and $31.4 million of
expenditures. See Table A for our nonstatistical sample plan.

                             Table A. Nonstatistical Sample Plan
                                                              Sample Amount
                                                                (in millions)
       Stratum             Population   Sample Size     Obligations     Expenditures
≥ 1 million                    24            24            $39.5            $26.9
≥ 500K to <1 million           17             9              5.0              2.2
≥100K to <500K                 62            13              2.2              2.1
<100K                          91             5              0.2              0.2
   Total                      194            51            $46.9            $31.4

We met with officials from the Under Secretary of Defense (Comptroller)/Chief Financial
Officer to determine their involvement in reporting the 2009 obligations and expenditures. We
also discussed with them lessons learned from the 2009 data submission and how they were
applied to the 2010 reporting of obligations and expenditures.

We met with DON officials from ASN(FM&C); JGPO; NAVFAC; NAVFACPAC; Commander,
Navy Installations Command; USMC; USMC Program and Resources; and USMC Forces,
Pacific, to determine their roles and responsibilities and processes for obligating Guam


                                                10

realignment funds. We also determined their involvement in reporting the 2009 obligations and
expenditures. We discussed the 2009 lessons learned and 2010 reporting of obligations and
expenditures. We obtained standard operating procedures and obligation documentation,
including the Forms 2275 and 2276, MIPRs, statements of work, delivery and task orders, travel
authorizations and vouchers, and other supporting documentation for the sample items.

We met with the Marine Corps Audit Assertion Team and Departmental Reporting at DFAS,
Cleveland, to identify their roles and responsibilities and processes for expending Guam
realignment funds. We obtained and reviewed payment vouchers and other supporting
documentation generated by SABRS and STARS. We also obtained standard operating
procedures regarding the maintenance of records.

We also met with representatives from the U.S. Pacific Command and U.S. Pacific Fleet.

Use of Computer-Processed Data
To perform this audit, we used data obtained from SABRS, STARS, and the Defense Travel
System. We assessed data reliability by reviewing existing system information and interviewing
knowledgeable DON and DFAS officials and by comparing Forms 2275 and 2276, MIPRs,
statements of work, delivery and task orders, payment vouchers, travel authorizations and
vouchers, and other supporting documentation to the identified and reported 2009 obligations
and expenditures for the Guam realignment. Based on this work, we concluded that the data
were sufficiently reliable and accurate for the purpose of our review.

Prior Coverage
No prior coverage has been conducted on the identification and reporting of obligations and
expenditures for the Guam realignment during the last 5 years.




                                               11

Appendix B. Inaccurately Identified and
Reported Obligations
To determine whether DoD accurately identified and reported 2009 obligations for the Guam
realignment, we nonstatistically selected a sample of 51 line items for review. These 51 line
items contained 74 obligations valued at $46.9 million. DON did not accurately identify
36 obligations, resulting in an understatement of approximately $7.3 million, and did not
adequately support 9 obligations, resulting in an overstatement of approximately $1.9 million.
Table B illustrates details of the 45 inaccurately identified and reported obligations.

                    Table B. Inaccurately Identified and Reported Obligations
Item                                        Original
                                                              Verified       Overstated    Understated
 No.            Obligation Type             Reported
                                                              Amount          Amount        Amount
                                            Amount
1­
         In-House Support                            0        $5,583,886                     $5,583,886
32*
33       Contractor Costs - Defense
         Posture Review Initiative         $3,000,000          2,918,560        $81,440
         Planning Cell
34       JGPO Salaries                      1,879,254          1,864,278         14,976
35       Support in Analyzing Cost and
         Rates for Various Special          1,911,605            679,725       1,231,880
         Purpose Entity Utility Options
36       In-House JGPO Contract
                                            2,488,155          3,859,038                      1,370,883
         Support
37       Contractor Costs - Marine
                                              900,000            958,837                         58,837
         Forces Pacific Embeds
38      Utility Study, New wells            1,354,611          1,291,589         63,022
39      Program Support Contract            1,328,488          1,626,939                        298,451
40      Coordination and Management
                                              356,137                    0      356,137
        Services
41      JGPO Travel                           486,125            468,671         17,454
42      010 Program Decision
        Memorandum IV Corps                   106,461                    0      106,461
        MILCON
43      NAVFAC In-House Support
                                              100,000             99,905             95
        Costs
44      Marine Forces Pacific Phase II
        Information Technology Build           47,253             49,760                          2,507
        Amendment
45      Defense Posture Review
        Initiative Military Working            18,574                    0       18,574
        Dogs Relocation, Apra Harbor
           Total                                                              $1,890,039      $7,314,564
*DON identified 32 obligations for in-house support after issuance of the 2009 “Interagency Coordination Group of
Inspectors General for Guam Realignment Annual Report.”




                                                         12
Appendix C. Inaccurately Identified and
Reported Expenditures
To determine whether DoD accurately identified and reported 2009 expenditures for the Guam
realignment, we nonstatistically selected a sample of 51 line items for review. These 51 line
items contained 53 expenditures valued at $31.4 million. DON and DFAS did not accurately
identify 2 expenditures, resulting in an understatement of $228,043, and did not adequately
support 28 expenditures, resulting in an overstatement of approximately $13.3 million. Table C
illustrates details of the 30 inaccurately identified and reported expenditures.

                 Table C. Inaccurately Identified and Reported Expenditures
Item                                 Original
                                                        Verified       Overstated    Understated
 No.        Expenditure Type         Reported
                                                        Amount          Amount        Amount
                                     Amount
1-11*   In-House Support             $7,210,568         $5,005,049      $2,205,519
        Contractor Costs - Defense
12      Posture Review Initiative     3,000,000           220,504        2,779,496
        Planning Cell
13      JGPO Salaries                 3,052,714             4,730        3,047,984
        Support in Analyzing Cost
        and Rates for Various
14                                     865,381             90,071        775,311**
        Special Purpose Entity
        Utility Options
        Project Documentation,
15                                     945,126                     0       945,126
        Master Plan
        Special Purpose Entity
16                                     865,880            753,000          112,880
        Business Model
        Contractor Costs - Marine
17                                     900,000             16,958          883,042
        Forces Pacific Embeds
18      Contractor Costs               866,585                     0       866,585

19      Social Impacts Assessment     1,240,827          1,054,850         185,977
        Coordination and
20                                     619,000            521,505           97,495
        Management Services
        USMC Family Housing
21      Public/Private Venture for      73,161             54,720           18,441
        Guam Transition
        Contractor Costs - Defense
22      Posture Review Initiative      448,506            117,515          330,991
        Planning Cell (Onyx)

        Coordination and
23                                     487,095                     0       487,095
        management services

24      USMC Contractor Support        361,297             61,496          299,801
        Air Study for Guam Power
25                                     492,745            435,624           57,121
        Generation


                                                  13

Item                                       Original
                                                               Verified       Overstated     Understated
 No.          Expenditure Type             Reported
                                                               Amount          Amount         Amount
                                           Amount
26       Cultural Resource Study               477,191           275,171          202,020

27       Airspace                               12,734            50,555                          $37,821
         Commonwealth of the
         Northern Mariana Islands
28                                             419,776           397,918           21,858
         Joint Military Training
         Master
         010 Program Decision
29       Memorandum IV Corps                   106,461           296,683                          190,222
         MILCON
         Defense Posture Review
         Initiative Military Working
30                                              18,574                    0        18,574
         Dogs Relocation, Apra
         Harbor
          Total                                                               $13,335,316          $228,043
*The in-house support line item consisted of 11 inaccurately identified and reported expenditures.
**Row does not sum because of rounding.




                                                         14

Department of the Navy Comments






                              THE ASSISTANT SECRETARY OF THE NAVY
                                 (FINANCIAL tlANAGEMENT AND COMPTROLLER)
                                             1000 NAVY PENTAGON
                                         W}\SHINGTO N DC 20350- 1000

                                                                                     May 13, 2011

      MEMORANDUM FOR DEPARTMENT OF DEFENSE IN SPECTOR GENERAL

     SUBJECT, DoDIG Draft Report on Results In Brief: DoD Officials need to Improve
              Reporting of Obligations and Expenditures for the Guam Realignment

         The Department of the Navy (DON) valu es hi g h quality ex terna l reviews that provide
     substan ti ve findings that enabl e us to improve our ab ility to produce acc urate. reliable
     financ ial information and statement s. The draft Department of Defense In spector
     General report prov ides valuable recommendati ons for improvement of our account ing
     for the Marine COiVS reali gnment to G uam.

         , have rev iewed the DoDIG 's recommendati ons and huve the foHowing comments:

            I. Recommendation I. Rev iew all 2009 ohli gations and ex penditures for the
                                   Click to add JPEG file
     Guam Realignment and provide corrected obli gations and expenditures to the Interagency
     Coord inati on Group of Inspectors Ge neral for Guam Reali gnment.

     DON Response: Co ncur. FM&C Offi ce of f7inancial Operatiolls will be issuing
     guidan ce 10 address find ings in the DoOIU audit in the near future. Th is guidance will
     direct activities with 2009 Guam relocat ion ohl iga tions <l nd expenditures to resubmit to
     the Interagency Coordin ation Group of Inspectors General fo r Guam.

           2. Reco mmendation 2. Estahli sh a contingency code in the offi cial Hceou nting
     systems spec ificall y to identify obligations and expenditures for the Guam realignment.

      DON Response: Co ncur with com men!. Prescribed accounting codes will be addressed
     in the guidance, however cOlltingerH.:y t:ode is not the appropriate mechan is m for
     capturing costs.

             3. Recommendation 3. Establi sh adequate financial policies and procedures to
     ensure thal future o bli gations and expendi tures for the Guam reali gnment are accu rately
     identified and rep0rled for Congress.




                                                                 15
Department of the Navy Comments






     SUBJECT: DoD IG Draft Report on Result s In Brief: Do D Offi cials need to Impro ve
              Reporting of Obligations and Expenditures for the Guam Realignment

      DON Response: Concu r. The gu idance referenced above, w ill also provide
     additional d irection to ensure proper future reporting of obli gatio ns and ex penditures for
     the Guam rell lign menl.

             4. Recommendation 4. Estab li sh procedures to re tain all supportin g
     documentation for the G uam realignrnentlo ensure adequate support ex ists for accurate
     re porting.

      DON Respome: Concu r. FMR Volu me I Chapter 9, detail s the regui_rements for the
     re tention of doc umentat ion. The abovt: refere nced guidance will include direction on
     retaining documentation support ing obligation and expend itures for the G uam
     realignment and making the m readil y available for audit.

            5. Recommendation 5. Conduct periodic quality assurance reviews to ensure
     accurate ide ntification and reporting of Guam rea li gn ment obli gatio ns and expenditures.
                                   Click to add JPEG file
      DON Response: Concur. Within the guidance referenced in the response to
     recomme ndation # I , the appropriate organi zations wi ll be tasked to pcrform such
     reviews.

        The DON welco mes the opportunity to wo rk transparentl y with the DODIG to fUithcr
     improve ou r financial manage me nt processes, proced ures and policy. My poinl of
     contact in this matter is




                                                John W. McNa ir
                                                Acti ng




                                                                 16
